         Audit of the State Wage Match Data Transmission Controls 

                       Report No. 07-04, March 28, 2007 


                                INTRODUCTION 


This report represents the results of the Office of the Inspector General’s (OIG)
audit of the state wage match data transmission controls.

BACKGROUND

The Railroad Retirement Board’s mission includes an unemployment-sickness
insurance benefit program for railroad workers under the Railroad Unemployment
Insurance Act. This program provides temporary unemployment and sickness
benefits to qualified railroad workers. During fiscal year ending September 30,
2006, about 28,000 unemployment and sickness claimants received
approximately $73 million in benefits.

The Railroad Retirement Board (RRB) has developed integrity programs to
identify new information or verify existing information relevant to determining
initial or continuing eligibility and entitlement to benefits. These programs are
crucial to ensure that the RRB pays benefits in the correct amount to eligible and
entitled beneficiaries and to detect fraud and abuse. One of these programs,
referred to as the “State Wage Matches,” involves matching data with the states
and other matching participants.

The RRB has computer matching agreements with 49 states and the District of
Columbia. The Office of Programs conducts the state wage matches with the
majority of these participants by generating IBM cassette tapes containing the
Social Security Numbers (SSNs) of railroad employees who received
unemployment and sickness benefits. The RRB sends the IBM cassette tapes to
the matching participants to detect instances in which railroad employees
received unemployment or sickness benefits for days on which they also worked
in non-railroad employment, or for which state unemployment benefits were paid.
The RRB occasionally matches data with the State of Hawaii and the
Commonwealth of Puerto Rico by mailing paper documents to them. The
matching participants provide the RRB with the results of their matches. The
results generally include names, SSNs, earnings, state benefits, and employer
information. The RRB reimburses the matching participants for their actual costs
of performing the matches. The Office of Programs conducts the state wage
matches twice a year except for quarterly matches with the state of New York. In
some cases, the RRB’s field offices verify the accuracy of the match results. The
Office of Programs refers some cases to the Office of Inspector General for
investigations when fraud is suspected.

Information which can be linked to an individual is referred to as personally
identifiable information (PII) by the United States Office of Management and



                                         1

Budget (OMB). The OMB has defined PII as follows: “Personally Identifiable
Information means any information about an individual maintained by an agency,
including, but not limited to, education, financial transactions, medical history,
and criminal or employment history and information which can be used to
distinguish or trace an individual's identity, such as their name, social security
number, date and place of birth, mother’s maiden name, biometric records, etc.,
including any other personal information which is linked or linkable to an
individual.”

OBJECTIVE, SCOPE, AND METHODOLOGY

The OIG performed this audit to determine the adequacy of the state wage match
data transmission controls for ensuring the security of state wage match data.
The OIG accomplished the audit objective by:

   •	 interviewing responsible management and staff;
   •	 assessing RRB data transfer controls including the safeguarding of state
      wage match data tapes; and
   •	 assessing the data transfer methods included in the state wage match
      agreements.

This audit was conducted in accordance with generally accepted government
auditing standards applicable to the objective. We performed the fieldwork at the
 RRB headquarters in Chicago, Illinois from November 2006 through February
2007.

                              RESULTS OF AUDIT 


Subsequent to the loss of state wage match data in September 2006, the RRB
improved controls over the transmission of this data. Based on the RRB’s
actions, we conclude that controls for transmitting state wage match data provide
a reasonable assurance that such data is secure. The RRB can, however, take
additional actions to further improve controls. Details on the loss of state wage
match data, RRB actions to improve controls, and areas in which additional
improvements can be made are presented below along with our
recommendations.

Until September 2006, the Office of Programs conducted the majority of the state
wage matches by mailing unencrypted data tapes in padded envelopes to the
matching participants. The RRB sent paper documents to the state of Hawaii
and the Commonwealth of Puerto Rico. The RRB had exchanged state wage
match data with two states via an electronic transfer of encrypted data. The RRB
was in the process of implementing the electronic transfer of encrypted state
wage match data with one other state. The Office of Programs had performed
state wage matches for approximately 17 years without the loss of any matching
data.


                                        2

In September 2006, the State of Minnesota sent the Office of Programs a
package containing two state wage match computer tapes. The Office of
Programs received the package, but it was torn open and the tapes were
missing. The package was a soft bubble wrap envelope. The State of
Minnesota sent the package by first class mail via the United States Postal
Service. The state wage match agreement with Minnesota did not specify any
shipping method. The RRB reported the incident to the Department of Homeland
Security, as required by the Federal Information Security Management Act of
2002, and to the Office of Inspector General for investigation. The tapes have
not been found, and there is no indication the data has been misused.

In conducting an investigation of this loss, the Office of Inspector General met
with employees of the United States Postal Service. The Postal employees
stated that computer tapes should be packaged in boxes. Mail handling
equipment is known to squeeze hard items out of soft bubble wrap packages.
Once disassociated from the packages, the contents may never be delivered to
the intended recipients.

Subsequent to the loss of the Minnesota tapes, the Office of Programs and the
State of Minnesota implemented a secure electronic exchange of encrypted state
wage match data. In addition, the Office of Programs took the following steps
with other matching participants to further protect against the loss of state wage
match data:

   •	 instructed matching participants to ship data tapes in boxes rather than in
      bubble wrap packages,
   •	 directed the matching participants to ship the tapes via a public carrier
      who provides electronic receipt and tracking during shipment, and
   •	 printed address labels for the data tapes so that they can be delivered to
      the RRB even if they are separated from the shipping box.

In addition to these improvements, the RRB should take additional actions to
further improve security. The following sections present areas in which
improvements can be made.


ENCRYPTION AND ELECTRONIC TRANSFER OF DATA

The RRB can take action to increase the number of states encrypting data and
transferring it electronically. The Office of Programs indicated that, five or six
years ago, the Bureau of Information Services (BIS) contacted all the matching
participants regarding encryption of state wage match data and use of electronic
transmission. At that time, the matching participants did not show significant
interest in these methods.




                                         3

The Office of Programs has continued to pursue encryption and electronic
transmission but with limited success. Program officials indicated that
coordinating a change to encrypt data and to transmit it electronically with all
matching participants has been a logistical challenge. Implementation of
encryption and electronic transmission has been difficult due to the complexities
involved. Because the states have different computer systems, various software
and hardware issues have to be addressed individually. Matching participants
have different preferences for implementing the various methods of encrypting
and electronically transferring data. For example, some states may prefer use of
an RRB computer server as opposed to using their own server for data transfers.
In addition, changing current processing and revising the state wage match
agreements can involve multiple departments and individuals at the state level.
The Office of Programs indicated that it was a major accomplishment to get all
the matching participants to use one of three different data layouts for the
computer matching data. Other impediments to change included prohibitive
costs of implementing changes, and the RRB having higher priorities over the
last few years.

This environment has changed significantly in the last year. State wage match
data was lost. Data was lost by the Veterans Administration and other
government agencies and these losses were covered in the press raising the
concern of both the public and government officials. On October 13, 2006, the
Committee on Government Reform issued a staff report on agency data
breaches since January 1, 2003. In addition, technology has advanced to the
point that the cost of encrypting data and transmitting it electronically is no longer
prohibitive. At this time, both the RRB and the matching participants may be
motivated to implement changes that will improve data security. The Office of
Programs, Program Evaluation Section, has established an internal goal of
implementing encrypted electronic data transfers with an additional five state
wage matching participants during Fiscal Year 2007.

However, the Office of Programs has not developed a formal plan for increasing
the number of participants who encrypt or transfer state wage match data
electronically. Without such a plan, the Office of Programs may be missing an
opportunity to raise the priority for its initiatives within the RRB and to gain the
support of the RRB Executive Committee.

OMB memorandum M-06-16 dated June 23, 2006, Protection of Sensitive
Agency Information, requires encryption and implementation of National Institute
of Standards and Technology (NIST) security controls for PII “transported and/or
stored offsite.” RRB Form G-5 pamphlet dated 1-07, The Railroad Retirement
Board’s Rules of Behavior for the General Support Systems, which amends
Appendix 3 of Administrative Circular IRM-10, End-User Computing: Network
and Microcomputer (PC) Management, requires encryption for PII stored on
remote systems, mobile devices, and removable storage media.




                                          4

Recommendation

We recommend that the Office of Programs establish a formal plan with short-
term and long-term goals for encrypting and transferring data electronically with
state wage match participants. (Recommendation #1)

Management’s Response

The Office of Programs concurs with the recommendation. The Office of
Programs indicated that “Assessment and Training will coordinate with Policy
and Systems (P&S) and the Bureau of Information Services (BIS) to develop an
action plan to propose electronic data exchanges with state agencies. The plan
which will include both short and long-term goals for implementation will be
completed by July 31, 2007.” The full text of management’s response is included
as an appendix to this report.


STATE WAGE MATCH AGREEMENTS

The state wage match agreements do not sufficiently address the data
transmission methods. When the RRB initiated the state wage match program in
the early 1990’s, it developed a standard agreement that most, if not all,
matching participants could accept. Currently, 43 of the 50 matching participants
perform the state wage matches under the terms of the standard agreement.
The remaining seven matching participants have made other agreements with
the RRB for the state wage matches. The RRB refers to these agreements as
non-standard agreements. They generally have requirements that are more
extensive than the standard agreements. The majority of non-standard
agreements (six of seven) include electronic encryption options in accordance
with NIST standards.

The standard agreements do not include methods for shipping the data tapes
and six of the seven non-standard agreements provide that data tapes be sent by
first class mail in padded envelopes. That is the shipment method that resulted
in the loss of the State of Minnesota tapes. The Office of Programs has
significantly increased physical security over state wage match data tapes by the
use of boxes, padded packaging, tracking, and return receipt. The agreements
should be updated to reflect these changes.

The RRB is currently electronically exchanging encrypted state wage match data
with three states and is in the process of implementing a similar exchange with
one more state. The RRB has standard wage match agreements with all four of
these states. The RRB has not updated these agreements to reflect the change
from the use of data tapes to the current transfer method, i.e. encrypted
electronic data transfers.




                                         5

The Privacy Act requires that matching agreements include “procedures for
ensuring the administrative, technical, and physical security of the records
matched and the results of such programs.”

By not addressing the current data transmission methods in the agreements, the
agreements are not current and accurate and internal controls are weakened.

Recommendation

 We recommend that the Office of Programs update the state wage match
agreements to reflect the current transfer methods including security measures
for data encryption and electronic data transfer. (Recommendation #2)

Management’s Response

The Office of Programs concurs with the recommendation. The Office of
Programs indicated that Assessment and Training “will incorporate wording in the
addendum previously developed for initiating electronic data transmission
methods or in agreement renewals to specify traceable packaging delivery using
a box container. A&T will develop a plan to implement revised agreements by
July 31, 2007.”



POLICIES & PROCEDURES

The Office of Programs does not have written policies and procedures for the
state wage match data transmission process. The Office of Programs has
prepared some written draft procedures and plans to prepare detailed written
policies and procedures.

The Standards for Internal Control in the Federal Government, published by the
U.S. General Accounting Office (GAO) in November 1999, require that
“Management and employees should establish and maintain an environment
throughout the organization that sets a positive and supportive attitude toward
internal control and conscientious management.” The internal control standards
define internal control as an integral component of an organization’s
management that provides reasonable assurance that the following objectives
are being achieved: (1) effectiveness and efficiency of operations, (2) reliability
of financial reporting, and (3) compliance with applicable laws and regulations.
Internal control is a major part of managing an organization. It comprises the
plans, methods, and procedures used to meet missions, goals, and objectives.

The lack of written policies and procedures for the state wage match process is
an internal control weakness which can decrease accountability and weaken
security of the state wage match data.



                                         6

Recommendation

We recommend that the Office of Programs establish target dates for finalizing
and implementing written policies and procedures for the state wage match data
transmission process. (Recommendation #3)

Management’s Response

The Office of Programs concurs with the recommendation. The Office of
Programs indicated that Policy and Systems “will develop and publish
procedures by September 30, 2007.”


TAPE TRANSFER PROCESS

The Office of Programs has not established uniform policies and procedures for
monitoring data tapes during the matching process. The RRB does not use the
courier’s tracking system to monitor approximately one-half of the packages sent
to the matching participants. In addition, the RRB does not contact by phone or
e-mail approximately one-half of the state matching participants when a package
is sent. The matching participants do not notify the RRB when matching tapes
are returned to the RRB.

The Standards for Internal Control in the Federal Government, require that
“Management and employees should establish and maintain an environment
throughout the organization that sets a positive and supportive attitude toward
internal control and conscientious management.” Internal control comprises the
plans, methods, and procedures used to meet missions, goals, and objectives.
The possession of clear and concise written policies and procedures is an
internal control activity which will help ensure that data tapes are adequately
monitored during the data transmission process. The lack of written policies and
procedures for the state wage match process has contributed to this condition.

Internal controls are weakened if the RRB does not have a formal procedure for
tracking state wage match data tapes and delayed or lost tapes may not be
identified in a timely manner.

Recommendation

We recommend that the Office of Programs establish policies and procedures for
monitoring state wage match data tapes shipped to and from the matching
participants. (Recommendation #4)

Management’s Response




                                       7

The Office of Programs concurs with the recommendation. The Office of
Programs indicated that “the employees involved have already been directed to
monitor the shipping of these tapes to and from the states. The process will be
formalized when uniform procedure is published by September 30, 2007.”


TAPE MONITORING RECORDS

Office of Programs’ records for monitoring and tracking the location of state wage
match data tapes do not sufficiently account for the temporary storage of tapes
and do not document a complete history of tape activities.

After the matches have been completed, the matching participants send two
categories of tapes to the Office of Programs. The first are the input tapes that
the Office of Programs sent to the matching participants. The second are the
output tapes that the matching participants produce with the match results. Upon
receipt, the Office of Programs holds the input tapes in temporary storage and
forwards the output tapes to BIS for computer processing of the state wage
match data. Occasionally BIS is unable to immediately process the output tapes
and the Office of Programs will hold them in temporary storage. After the
computer processing output is received, reviewed, and accepted, the Office of
Programs sends the input tapes to BIS where the data is erased from both the
input and output tapes.

Office of Programs’ employees do not record, in the tape monitoring records, the
removal of data tapes from temporary storage. In addition, an employee
occasionally overwrites the dates that tapes are received, processed, etc., with
the processing dates of other tapes. The Office of Programs manually tracks
approximately one-half of the tapes and tracks the remainder in an electronic
spreadsheet. The lack of written policies and procedures for the state wage
match process has contributed to this condition.

Not accurately documenting tape activity could hinder the detection and
investigation of a lost tape. Properly accounting for the temporary storage of
tapes and the movement of tapes ensures the protection of both the data tapes
and the personal information contained on them.

Recommendations

We recommend that the Office of Programs:

   •	 establish procedures that will ensure the tape monitoring records are
      current, complete, and accurate; (Recommendation #5) and
   •	 establish procedures to track all data tapes electronically to ensure
      consistent records are maintained. (Recommendation #6)




                                        8

Management’s Response

The Office of Programs concurs with the recommendations. In response to
recommendation #5, the Office of Programs indicated that “the employees
involved in handling these tapes have already been directed to maintain current
complete and accurate records of the process of monitoring the shipping of the
tapes. The documentation requirement will be formalized when uniform
procedure is published by September 30, 2007.” In response to recommendation
#6, the Office of Programs indicated that “the employees involved in handling
these tapes have already been directed to track control of tapes until they are
placed in control of BIS hands. The process will be formalized when uniform
procedure is published by September 30, 2007.”




                                      9

                                                                                          Appendix




-TO;:.                      Henrietta Shaw
                  :         Asdstant Inspector Get!
..?PWM:                 '   Catherine A. Ceyser
              .             Director of.Assessrn
TEROUGH?            Dorothy isherwood           tb)-.
    i    .        . Direotor.of Prograuns                               \.
                                   ..   .

                  , ;   .DM ~ d p a r t ~
                         GOptrolS
                                            -      u of d titate
                                                            ~ wage ~atch..~irta
                                                               .   .'       T-RI~MO~

                                                    .   .

                                                                                  .   .
                   Wer~end,htthe~of~rngrams&~ishaf6imelplan~~
F-mn               shoft4m'and long.tertn, g ~ &for encrypting and transferring data
                   dectronhlly with state wage match pamipants.

OP Roaponse        We amqw. Assessment and Tmining (A&T) wH1 wordinate withPdby and
                   Systems (P&S) and the Bwmu of Infomation EteNi~es(81s) to deve5op-an
                   action plan to propoae electronio data exchanges with state .agendes. The..
                   plm which will indude bolh short and long-term goals for hnplernentation
                   Wnl be oornptgted by July 31,2007.

'*~o-           ~ e ~ m ~ a t ~ e ~ d ~ ~ ~ s u ~ d ~ e t h e s t
a               agtwmer@ to 1:efteoZQw mmnt transfer methods hduding security
              . rnea8UI:gtsfor data enomon and electronic dqta tmmf8T. . .


OP Reqe&           We concur. A&T will incorporate wording in the Wendurn p.rdaisly
                   developed for, initiating eledtronb data transmission method$ Or ,kr
                   agreement renewals ,to' q m M y traceabte packagin6j:delivery using a: box .
                   wntainer. A&T wlll~ctevdapa p b to im#fment.'m4geel,agream&$s.Bgr
                   July.%, 2g7. .
                                                                                             Appendix



             ..      We recommendthat the Office of prog-    establish ,trtrgetdates for
.   Recortmrsadstion Pnalidng and impleme@ngvvdtlen polldeb and procedures'for the state .
    3 . I:
                .    wagematch data t r a n s d n process.
                                                  - -   .

     WRapo*         .   We &r.       P a will develop' and p u w h pFooedures 6y September 30,
                        2007.



    w-dr!tiSn           We p m m e n d that the OMde of Programs e&alAkh polides and.
    4                   prooedures for monpbrihg @atewage matchdata.tapes shipped to and horn
                        the rnatohlngpartidparrt9.

    0s-                 .wec a w . he emplojrw invdwd tm* dmady               dhs;Xed to &itor
         !              the sh,ipp!ng of the* taps:to and from the stam.. T b pmc~sswill be
                        formalized when uniformprocedure 18 publiehed by September 30,aBo?.



                        we recommend that me ofaos of pryrams estab~sh'procedura     that will
    Recommendaaan
    5                   ensure the tape monbring reoar& are ourrent, complete, ind awnate.


    OP R a w -          We .concur. The eqnployees iwohreci in handling these tapes have already
                        been d i d e d to maintah w m t oomplete and accurate records of the
                        pr-      of r n o n i t d ~the shipping of the tapes. The dgcummtation
                        requhqnmt will be formalized when unfform procedure b publisheel by
                        September 30,207.


    lbwmmmh*
    .6
                     We rec~mmend    that the Ofhe ~f Programs tptabtieh procedur- to twok dl      .
                     .data tapes.dedrontcadlyto eqgure consistent r 8 0 0 e . a t e mhinM&.
                                    '\




    O p Raspom        We conour. The h p k y e e s invokqd in handlicyl these tapm'ha~     already.
                      been direetdto ttdlcrk gontrol of tapes u d they are placed in control' of f%S
                    . hands. The'p r p s s HEifl lie formalized when uniform prowdurn b pubnehed.
                      by September30,2007.
